LYDECKER

D IAZ

Please reply to Miami Office:
1221 Brickell Avenue
19th Floor
Miami, FL 33131
(305) 416-3180

December 29, 2020

Miami
New York
Fort Lauderdale
Bonita Springs
Boca Raton
West Palm Beach
Orlando
Tampa
Jacksonville
New Jersey
Pennsylvania

Via Federal Express- Tracking No,7724 9366 5684
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
One First Street, N.E.
Washington, D.C. 20543.
Re:

Eric Ferrier v. Cascade Falls Condominium Association, Inc., et al.
Case No.: 20-762

Dear Mr. Harris:
I am counsel for Cascade Falls Condominium Association, Inc. (Cascade Falls), a
respondent in the above-captioned matter. The petition for a writ of certiorari in this case was
docketed on December 2, 2020, and Cascade Falls' response to the petition is currently due January
5, 2021. Attached please find a copy of a letter that was submitted via certified return receipt on
December 18, 2020, pursuant to Rules 15.3 and 30.4 of the rules of this Court, seeking an extension
of time to and including January 26, 2021, for its response to the petition. It appears that to date
the Court has not received the previous request, therefore, in an abundance of caution, we are
resubmitting this request.
Cascade Falls needs 14 days beyond the current deadline to respond as the undersigned
counsel will be out of the office for a pre-planned vacation from December 24, 2020 and returning
on January 5, 2021. Undersigned counsel has sought the pro se Petitioner's position on this
request, but has not received a response as of the date of this application for extension of time.
Cascade Falls therefore requests that the due date for its response to the petition be
extended to January 26, 2021.
Please note that my application for admission to the Bar of the United States Supreme
Court is pending and is anticipated to be accepted on January 11, 2021.
Respectfully submitted,
9coprea 4, Atcheaka
Forrest L. Andrews, Esq.
cc: Eric Ferrier and counsel for respondents

I

RECEIVED
!' " —

A

2021
F'!-IE CLERK
U.S.

LYDECKER I DIAZ
WWW. LYDECKERDIAZ . COM

New York
Miami
'Fort Lauderdale
Bonita Spriugs
..Boca Baton
West Palm Beach
Orlando
Tampa
Jacksonville

LYpECKER.I •DJAZ
Pl6ageOpik Uitylianii Office!
1221 Brickell Avenue
-Fleur
Aland, FL 33131
(305) 416-.3180
DeceMber. 18, 2020

VIA CERTIFIED MAIL
RR#. 7019 2280 0002 0596.2740
Bon: Scott S. Han is, Clerk
Stiprenie 'Court of the United States
Office of the clerk.
One First'$treet, N.E.
Washington, D.C. 205.43
Re

Eric. Ferrier: v. Cascade Falls COndorninitirmAtsoCiation, Inc , et al
Case No..: 20-762.

Dear' Mr.11thiS:
I am counsel for 'Cascade: Falls Condornininni ASsOCiation, Inc: (Cascade Fills), a
respondent :in 'the above-captioned :•rnatter. The petition .for a writ of certiorari in this case Was
docketed on December 2, 2020, and Cascade Falls' response to the petition is cnirently-dne January
4, 2020. Pursuant to Rules f.5.3 and 30:4 of the rules of this CoUrt, Cascade Falls seeks an
extension Of time to and ineltOng 'January 26, 2021, for its teSponse.to the petition:
Cascade Falls needs 14 days beyond the current deadline to respond. The undersigned
counsel will be out of the Offite'fOr a pie-planned vacation from December 24, 2021 and returning
on January- 5, 2020: Undersigned counsel has sought the pro ,.Se Petitioner's. 'position on this
itqp'68t, but 'has, nor receiyed a tcsporise as of the date Of this application tOr OXIenS1:00 Of time.
Cascade Falts.therefore requests that the due :date for its response to the petition be
extended to January 26, 2021..
Please note that .471y application for admission to the: Bar of the United States Supreme
CdOwt is:pending and is anticipated to be accepted on jantrary. 1.1,, 2021.
Respectfully submitted,
ovrat

riata(44

Forrest L.. AndrewS, Esq.:
tric Ferrier arid :counsel forresporideritS

LYDED,kEll I DIAZ.
WWW. LYDECKERDIAZ: COM

